March 2007
Report No. 07-008


FDIC’s Implementation of the 2005
Amendments to the Community
Reinvestment Act Regulations




               AUDIT REPORT
                                                                                                 Report No. 07-008
                                                                                                      March 2007


                                    FDIC’s Implementation of the 2005 Amendments to
                                    the Community Reinvestment Act Regulations
                                    Results of Audit
Background and
Purpose of Audit                    The FDIC has issued institution and examination guidance that addresses the
                                    2005 amendments to the CRA regulations. The institution guidance was
The purpose of the Community
                                    supplemented with interagency questions and answers guidance in March 2006.
Reinvestment Act of 1977            Our review of 10 ISB Performance Evaluation (PE) reports found that examiners
(CRA) was to encourage              had generally followed the new examination procedures, using the lending and
depository institutions to help     community development tests to assess ISBs. However, we noted one area where
meet the credit needs of the        examiner guidance could be improved regarding the implementation of the ISB
communities in which they           community development test and the presentation of the results in the PE reports
operate, including low- and         to support test conclusions.
moderate-income
neighborhoods, consistent with      Specifically, the level of information and analysis required by the guidance and
safe and sound banking
                                    presented in the PE reports could be expanded in the following areas to more fully
practices. The CRA has come
to play an important role in
                                    support the examiners’ conclusions: the recognition of the number and dollar
improving access to credit          amounts of community development activities, the determination of opportunities
among under-served rural and        for community development, and the placement of community development
urban communities.                  activities in the context of a bank’s capacity. Further, comparative measures
                                    could be incorporated into the analysis to improve support and public
The CRA requires that each          understanding of conclusions reached in the PE reports. The absence of this
insured depository institution’s    information limits the usefulness of the PE reports to the community and can
record in helping meet the credit   reduce a community’s understanding of a bank’s CRA activities. Community
needs of its entire community be    understanding and use of the PE reports is key to ensuring that community needs
periodically evaluated and
                                    in terms of loans, investments, and services are being met.
publicly reported. In 2005, the
federal banking agencies
amended their CRA regulations       Additionally, while it may be premature to establish outcome-oriented
which created a new class of        performance measures for the amendments made to the CRA regulations, the
small institutions (intermediate    FDIC has not developed a strategy to determine whether the 2005 amendments to
small banks, or ISBs) with          the CRA regulations have provided the intended regulatory relief for smaller
reduced CRA reporting               community banks and preserved the importance of community development.
requirements and more flexibility   Such a strategy will position the FDIC to proactively assess the impact of the
in meeting CRA goals.               amendments made to the CRA regulations.
The objective of the audit was to
determine whether the FDIC has
                                    Recommendations and Management Response
(1) issued institution and
examination guidance that           The report recommends that the Director, DSC, (1) enhance examiner guidance to
addresses the 2005 amendments       ensure examiners provide complete support in the PE reports for their conclusions
to the CRA regulations and          for the community development test, (2) develop examiner guidelines that
(2) established outcome-            incorporate the use of comparative measures within the performance analysis, and
oriented performance measures       (3) develop a strategy for measuring CRA activities as a result of the amendments
to determine if the amended         made to the regulations to assist the FDIC in determining if the amendments have
regulations have provided the       provided the intended regulatory relief for smaller community banks and
intended regulatory relief for
                                    preserved the importance of community development in the CRA examinations of
smaller community banks and
preserved the importance of
                                    these banks. DSC management agreed to implement the first recommendation
community development.              and will raise the second and third recommendations with the other federal
                                    banking agencies for interagency discussion and consideration. Management’s
                                    planned actions are responsive to our recommendations.
To view the full report, go to
www.fdicig.gov/2007reports.asp
                                 TABLE OF CONTENTS


BACKGROUND                                                                   2

  Amendments to the CRA Regulations                                          2
  Institution and Examination Guidance                                       3

RESULTS OF AUDIT                                                             4

COMMUNITY DEVELOPMENT TEST                                                   5
  Community Development Test Guidance                                        5
  Examiner Support for Conclusions in PE Reports                             7
  Development and Use of Comparative Measures                               13
  Conclusion                                                                14
  Recommendations                                                           15

MEASURING THE IMPACT OF THE 2005 AMENDMENTS                                 15
 Conclusion                                                                 17
 Recommendation                                                             17

CORPORATION COMMENTS AND OIG EVALUATION                                     18

APPENDIX I: OBJECTIVES, SCOPE, AND METHODOLOGY                              19
APPENDIX II: CRA PERFORMANCE EVALUATION RATING                              24
              SYSTEM
APPENDIX III: COMPARISON OF LARGE BANK CRA                                  25
              EXAMINATION PROCEDURES TO ISB
              EXAMINATION PROCEDURES
APPENDIX IV: EXAMINATION AND INSTITUTION GUIDANCE                           27
APPENDIX V: REVIEW OF DATA COLLECTION AND ANALYSIS                          28
             FOR THE COMMUNITY DEVELOPMENT TEST
APPENDIX VI: CORPORATION COMMENTS                                           30
APPENDIX VII: MANAGEMENT RESPONSE TO                                        33
               RECOMMENDATIONS

TABLES
Table 1. Comparison of Data Collection and Analysis Provided in PE           9
         Reports for the Lending and Community Development Tests
Table 2. Review of the Identification of Community Development Activities   10
Table 3. Review of the Determinations of Opportunity for Community          12
         Development
Table 4. Review of the Determinations of Capacity for Community             13
         Development
ACRONYMS

APA      Administrative Procedure Act
C.F.R.   Code of Federal Regulations
CPO      Corporate Performance Objective
CRA      Community Reinvestment Act
DSC      Division of Supervision and Consumer Protection
EGRPRA   Economic Growth and Regulatory Paperwork Reduction Act of 1996
FFIEC    Federal Financial Institutions Examination Council
FIL      Financial Institution Letter
FRB      Board of Governors of the Federal Reserve System
GAO      Government Accountability Office
GPRA     Government Performance and Results Act
ISNB     Insured State Nonmember Bank
ISB      Intermediate Small Bank
OCC      Office of the Comptroller of the Currency
PE       Performance Evaluation
RD       Regional Directors
U.S.C.   United States Code
Federal Deposit Insurance Corporation                                                                          Office of Audits
3501 Fairfax Drive, Arlington, VA 22226                                                           Office of Inspector General



DATE:                                     March 30, 2007

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Supervision and Consumer Protection


                                          /Signed/
FROM:                                     Russell A. Rau
                                          Assistant Inspector General for Audits

SUBJECT:                                  FDIC’s Implementation of the 2005 Amendments to the Community
                                          Reinvestment Act Regulations
                                          (Report No. 07-008)


This report presents the results of our audit of the FDIC’s implementation of the 2005 joint final
rule that amended certain provisions of the FDIC, Board of Governors of the Federal Reserve
System (FRB), and Office of the Comptroller of the Currency (OCC) (collectively, the federal
banking agencies) regulations implementing the Community Reinvestment Act (CRA). The CRA
was enacted to encourage depository institutions to help meet the credit needs of the communities in
which they operate, including low- and moderate-income neighborhoods, consistent with safe and
sound banking practices. In 2005, significant amendments were made to the CRA regulations to
provide regulatory relief for smaller community banks and preserve the importance of community
development1 in the CRA examinations of these banks.

The objectives of the audit were to determine whether the FDIC has (1) issued institution and
examination guidance that addresses the 2005 amendments to the CRA regulations and
(2) established outcome-oriented performance measures to determine if the amended regulations
have provided the intended regulatory relief for smaller community banks and preserved the
importance of community development. We focused our audit on intermediate small banks (ISB).2
We selected a limited sample of CRA Performance Evaluation (PE) reports3 prepared by FDIC
examiners to gain an understanding of the manner in which the amended CRA regulations have
been implemented. Appendix I of this report discusses our audit objectives, scope, and
methodology in detail.



1
  Community development is defined in Part 345 of the FDIC Rules and Regulations as (1) affordable housing
(including multifamily rental housing) for low- or moderate-income individuals; (2) community services targeted to
low- or moderate-income individuals; (3) activities that promote economic development by financing small
businesses or farms; or (4) activities that revitalize or stabilize low- or moderate-income geographies, designated
disaster areas, or distressed or underserved nonmetropolitan middle-income geographies.
2
  ISBs - banks with assets of at least $250 million as of December 31 for both of the prior 2 calendar years and less
than $1 billion as of December 31 for either of the prior 2 calendar years.
3
  PE reports have been made public since July 1, 1990.
BACKGROUND

The CRA requires that each insured depository institution’s record in helping to meet the credit
needs of its entire community be periodically evaluated and publicly reported. Part 345, Community
Reinvestment, of the FDIC Rules and Regulations, which implements the CRA, requires the FDIC
to periodically conduct CRA examinations of FDIC-supervised institutions. Upon conclusion of an
examination, the agency must prepare a written evaluation of the institution’s CRA performance
record in a PE report. This written evaluation is public information and can be obtained through
the institution or its supervisory agency. While the content of the public evaluation might vary,
depending on the nature of the institution examined and the assessment method used, the PE
report generally has the following information: (1) the institution’s CRA rating,4 (2) a description
of the financial institution, (3) a description of the financial institution’s assessment areas, and
(4) conclusions regarding the financial institution’s CRA performance, including the facts, data, and
analyses that were used to form such conclusions. The CRA performance rating does not reflect an
institution’s financial condition but deals strictly with how well the institution is meeting its
responsibilities under the CRA.

Amendments to the CRA Regulations

Amendments to certain provisions of the CRA regulations took effect on September 1, 2005.
The amendments created a new class of institutions for CRA purposes, ISBs, with at least $250
million in assets but less than $1 billion, without consideration of holding company affiliation,
and included an annual inflationary adjustment based on changes to the Consumer Price Index.
For these ISBs, formerly examined under large bank CRA examination procedures, the amended
regulations:

    •   Eliminated CRA loan data collection and reporting requirements after September 1, 2005.
        However, examiners will continue to evaluate bank lending activity in the CRA
        examinations of these institutions and disclose the results in the publicly-available PE
        reports.

    •   Replaced the lending, investment, and service tests with two separately-rated tests: the
        existing lending test for small banks and a new, flexible community development test.
        However, the regulations continue to allow small banks, including ISBs, to opt for an
        examination under the lending, investment, and service tests for large banks, provided
        that the data are collected.

Appendix III of this report provides a comparison of large bank examination procedures to ISB
procedures.



4
  The FDIC rates the financial institution’s overall CRA performance using a four-tiered rating system. The four
ratings, Outstanding, Satisfactory, Needs to Improve, and Substantial Noncompliance, are defined in detail in
Appendix II of this report.
                                                         2
For banks of any size, the amended regulations:

    •    Expanded the definition of community development to include activities5 that revitalize
         and stabilize “underserved and distressed” rural areas, as well as designated disaster
         areas.

    •    Clarified when discrimination and other illegal credit practices by a bank or an affiliate
         will adversely affect a bank’s CRA performance.

Based on data compiled by the Federal Financial Institutions Examination Counsel (FFIEC) for
2005, the number of institutions reporting community development loans fell sharply from 1,280 to
813 (36 percent) because of the rule changes exempting institutions with assets of less than
$1 billion from reporting. However, the dollar volume of such lending was little changed from
$51.2 billion to $52 billion.

Institution and Examination Guidance

Part 345 of the FDIC’s Rules and Regulations, as revised in 2005, requires the FDIC to evaluate the
record of an ISB in helping to meet the credit needs of its assessment area(s) pursuant to a lending
test and a community development test. The lending test is evaluated pursuant to the following
performance factors:

    •    the loan-to-deposit ratio,
    •    loan concentration within the assessment area(s),
    •    loan distribution based on borrower characteristics,
    •    loan distribution based on geographic location, and
    •    the bank’s responsiveness to substantiated complaints.

The community development test is evaluated pursuant to the following performance factors:

    •    the number and amount of community development loans;6
    •    the number and amount of qualified investments;7
    •    the extent to which the bank provides community development services;8 and
    •    the bank’s responsiveness through such activities to community development lending,
         investment, and service needs.

5
  Loans, investments, or services with a primary purpose of community development.
6
  Part 345 defines a community development loan as a loan that has community development as its primary purpose
and that has not been reported by the bank for consideration in the bank’s assessment (within the lending test) as a
home mortgage, small business, small farm, or consumer loan, unless it is a multifamily dwelling loan; and that
benefits the bank’s assessment area(s) or a broader area that includes the bank’s assessment area(s).
7
  Part 345 defines a qualified investment as a lawful investment, deposit, membership share, or grant that has
community development as its primary purpose.
8
  Part 345 defines community development service as a service that has community development as its primary
purpose, is related to the provision of financial services, and has not been considered in the evaluation of the bank’s
retail banking services.
                                                           3
The conclusions reached, based on the results of the two tests, depend on the bank’s capacity9 for
such lending and community development activities, the needs of its assessment area(s), and the
availability of such opportunities10 for lending and community development.

The FDIC issued guidance on the revised CRA regulations in the form of Financial Institution
Letters (FIL) and Regional Directors (RD) Memoranda. The FDIC notified the institutions it
supervises of the amended CRA regulations through FIL-79-2005, Community Reinvestment Act:
Joint Final Rules, and of the ISB examination procedures through FIL-33-2006.11 The FDIC’s
Division of Supervision and Consumer Protection (DSC), which is responsible for implementing the
CRA examination process for the FDIC, notified its examiners of the ISB examination procedures
through RD Memorandum 05-032.12 These procedures were issued by the federal banking agencies
and posted to the FFIEC’s Web site. Additionally, the FDIC issued supplementary guidance in the
form of questions and answers (see Appendix IV for a complete list of FDIC institution and
examination guidance related to the CRA amendments).

Based on our review of the evaluation requirements in Part 345 for the community development test
and the FFIEC PE reporting requirements that the facts, data, and analyses used to form conclusions
about the rating must be reflected in the PE report (discussed later), we have determined that
examiners are required to present certain analytical information in PE reports. These requirements
are discussed in the following sections.

RESULTS OF AUDIT

The FDIC has issued institution and examination guidance that addresses the 2005 amendments to
the CRA regulations. The institution guidance was supplemented with draft interagency questions
and answers guidance in November 2005 and finalized in March 2006. In addition, our review of
10 ISB PE reports found that examiners had used the lending and community development tests to
assess ISBs and that examiners had generally followed the new examination procedures. However,
we noted that examiner guidance could be improved in relation to the implementation of the ISB
community development test and the presentation of the results in the PE reports to support test
conclusions.

Specifically, the level of analysis required by the guidance and presented in the PE reports could be
expanded in the following areas to more fully support the examiners’ conclusions: the recognition
of the number and dollar amounts of community development activities, the determination of
opportunities for community development, and the placement of community development activities
in the context of a bank’s capacity. Further, comparative measures could be incorporated into the
analysis to improve support and public understanding of conclusions reached in the PE reports. The
absence of this information reduces the usefulness of the PE reports to the community and can

9
  In relationship to banking, capacity is the financial, legal, and managerial ability to provide a certain type of product or
service.
10
   In relationship to banking and CRA, opportunity is the need for, or availability to participate in, a certain type of
product or service that meets a specific lending or community development need within a bank's assessment area(s).
11
   Entitled, Community Reinvestment Act Interagency Examination Procedures, April 10, 2006.
12
   Entitled, Interagency CRA Examination Procedures for Intermediate Small Institutions, August 16, 2005.
                                                              4
reduce a community’s understanding of a bank’s CRA activities. Community understanding and
use of the PE reports are key to ensuring that community needs in terms of loans, investments, and
services are being met (Community Development Test).

Additionally, while it may be premature to establish outcome-oriented performance measures for
the amendments made to the CRA regulations, the FDIC has not developed a strategy to determine
whether the 2005 amendments to the CRA regulations have provided the intended regulatory relief
for smaller community banks and preserved the importance of community development. Such a
strategy will position the FDIC to proactively assess the impact of the amendments made to the
CRA regulations (Measuring the Impact of the 2005 Amendments).

COMMUNITY DEVELOPMENT TEST

Based on our review of 10 ISB PE reports from 4 DSC regions, we found that examiners had
consistently provided support for conclusions on the lending test but often did not provide the same
level of support for conclusions on the community development test. The ISB examination
procedures for the lending test require the use and analysis of ratios, comparative analysis of
similarly-situated institutions (or customized peer group averages),13 and comparative analysis of
loan distribution by geographic location and borrower characteristics. The bank’s performance, as
presented in the PE report, showed loan totals and ratios by number and dollar amount for various
loan distribution categories. In addition, if bank management provided certain loan data, the bank’s
performance was further detailed by year. This information builds a supporting foundation for
examiner conclusions on the lending test. However, similar detailed procedural requirements do not
exist in the guidance for the community development test, which focuses on community
development loans, investments, and services. As a result, support in the PE report for the overall
conclusions for the community development test is limited and could be improved (see Appendix V
for our detailed analysis). The need for comprehensive support for conclusions in the PE report is
heightened by the fact that PE reports are used by the public and community groups in
understanding bank performance in the community. PE reports that contain comprehensive support
for examiner conclusions on community development will make the reports more informative to
these users.

Community Development Test Guidance

Part 345 of the FDIC’s Rules and Regulations, as revised in 2005, requires the FDIC to evaluate the
record of an ISB in helping to meet the credit needs of its assessment area(s) pursuant to a lending
test and a community development test. The community development test is evaluated pursuant to
the following performance factors:

     •   the number and amount of community development loans;

13
  Similarly-situated institutions are financial institutions that serve the same or similar assessment area(s) and that
are similar to the bank being examined in terms of size, financial condition, product offerings, and business strategy.
Customized peer group averages are the computed performance ratio averages of those similarly-situated
institutions.
                                                          5
   •   the number and amount of qualified investments;
   •   the extent to which the bank provides community development services; and
   •   the bank’s responsiveness through such activities to community development lending,
       investment, and service needs.

The FDIC issued RD Memorandum 05-032 to transmit the FFIEC’s ISB examination procedures
for the community development test, which require that examiners identify and form conclusions
about the number and amount of the institution’s community development loans, qualified
investments, and community development services. The RD Memorandum also requires FDIC
examiners to review (1) any information a bank may provide, including the results of any
assessment of community development needs or opportunities conducted by the bank, and
(2) CRA performance context information obtained by examiners from community, government,
civic, or other sources.

In addition, the FFIEC ISB examination procedures require that examiners formulate and document
a bank’s CRA performance context as it relates to “Opportunity” and “Capacity” by reviewing:

   •   relevant demographic, economic, and loan data;
   •   Consolidated Reports of Condition (Call Reports), Uniform Bank Performance Reports,
       annual reports, supervisory reports, and prior CRA examinations of the institution;
   •   any information provided by the institution about its local community and economy,
       including community development needs and opportunities, its business strategy, its lending
       capacity, or other information that assists in the examination of the institution;
   •   community contact(s) information;
   •   public comments since the last CRA examination; and
   •   public evaluations and other financial data for the existence of similarly-situated institutions
       (in terms of size, financial condition, product offerings, and business strategy) that serve the
       same or similar assessment area(s).

When presenting conclusions in PE reports with respect to CRA performance tests, the FFIEC
guidance for ISB PE reports instructs examiners to:

       Discuss the institution’s CRA performance. The facts, data, and analyses that were used to
       form a conclusion about the rating must be reflected in the PE report. The narrative should
       clearly demonstrate how the lending and the community development test, and their
       respective performance criteria, as well as relevant information from the performance
       context, factored into the institution’s rating.

While the objective to evaluate the record of an ISB in helping to meet the credit needs of the
bank’s assessment area(s) is the same for both the lending test and the community development test,
the FFIEC’s guidance provided for the lending test is more comprehensive than the guidance
provided for the community development test as discussed in the following sections.



                                                  6
Examiner Support for Conclusions in PE Reports

OIG Comparison of PE Report Results for the Lending and Community Development Tests

The level of information and analysis presented in the 10 PE reports sampled was broader and more
comprehensive for the lending test than for the community development test. We compared the
results of the lending test and the community development test in the 10 reports and found that the
PE reports documented the institutions’ ratings, included descriptions of the institutions and their
assessment areas, contained overall conclusions, and provided a certain level of support for both the
lending test and community development test. However, the level of support for examiner
conclusions on the lending test was more detailed than the level of support for examiner conclusions
on the community development test.

In addressing the lending test’s performance factors, as discussed in the Background section of this
report, examiners used and analyzed loan totals and ratios, performance measures of similarly-
situated institutions, and comparative loan distribution measures that incorporated the concepts of
capacity and opportunity. In contrast, support in the PE report for the community development test
did not always include required information on the number and dollar amounts of community
development activities, the determination of opportunities for community development, and the
placing of community development activities into the context of the bank’s capacity. In addition,
the analysis did not include comparative measures, such as the bank’s own historical level and trend
of performance or customized peer group reviews. As a result, unlike the conclusions reported for
the lending test, the PE reports did not always provide comprehensive support for examiner
conclusions for the community development test.

Similar to the analysis of the lending test, the community development test analysis is required to
incorporate the consideration of the following information:

   •   Performance in providing community development activities. For example, the lending
       test utilizes tables to summarize loan data and to provide the total number and amounts of
       loans under review. While the 10 PE reports did not present complete loan listings for
       the lending test, the reports did provide consistent summaries describing, for example, the
       breakdown of the loan portfolio and the distribution of certain loans. In addition, annual
       performance totals and ratios were provided, when available.

   •   Opportunities for community development. For example, the lending test quantifies the
       potential level of lending opportunity available by providing the percentages of low- and
       moderate-income families and census tracks within the bank’s assessment area(s).

   •   The bank’s capacity to provide for community development activities. For example, the
       lending test uses and analyzes indices, such as the loan-to-deposits ratio and the percentage
       of loans originated within the bank’s assessment area(s), as measures of capacity, in which
       low percentages may indicate excess capacity and a low level of performance.


                                                  7
To provide an analytical perspective, as provided for in the lending test, the analysis for the
community development test could also routinely incorporate the following information:

    •   The consideration of comparative measures in assessing the bank’s community development
        performance. For example, the lending test uses customized peer group averages of
        similarly-situated institutions to comparatively assess the bank’s loan-to-deposit ratio, and
        the test uses percentages of low- and moderate-income families and census tracks to
        comparatively assess the bank’s loan distribution.

While both tests share the same institution and assessment area(s) descriptions, which provide the
initial descriptions of the bank’s performance context as it relates to capacity and opportunity, the
lending test incorporates additional information to supplement and support the institution’s
performance and context. Also of note, the use of formulated and comparative ratios serves many
purposes, including the illustration and determination of an institution’s performance, opportunity,
and capacity. Table 1, on the next page, summarizes the results of our review of the 10 PE reports.




                                                   8
Table 1: Comparison of Data Collection and Analysis Provided in PE Reports for the
Lending and Community Development Testsa
         Analytical Measures                           Lending Test                 Community Development
                                                                                            Test
Determination of Performance
Summary Listing/Description                                  Always Provided                    Always Provided
Complete Listing                                              Never Provided                  Sometimes Provided
Total Numbers                                                Always Provided                  Sometimes Provided
Total Dollar Amounts                                         Always Provided                    Usually Provided
Annual Totals (If available)                                 Always Provided                     Rarely Provided
Formulated Ratios                                            Always Provided                     Rarely Provided
Comparative Ratios (If available)                            Always Provided                     Never Provided

Determination of Opportunity
Bank’s Own Assessment                                        Rarely Providedb                    Rarely Provided
Examiner’s Economic and                                      Always Provided                  Sometimes Provided
Demographic Assessment
Activities of Similarly-Situated                             Always Provided                       Rarely Provided
Institutions
Statements of Community Contacts                             Always Provided                      Always Provided
Statements of Public Comments                                Always Provided                         Inconclusivec
Formulated Ratios                                            Always Provided                       Never Provided
Comparative Ratios                                           Always Provided                       Never Provided

Determination of Capacity
Formulated Ratios                                            Always Provided                       Rarely Provided
Comparative Ratios                                           Always Provided                       Never Provided
Source: OIG analysis of 10 PE reports.
a
  Legend: Always Provided = 10 PE reports, on average, provided the analytical measure; Usually Provided = 8-9 PE
reports, on average, provided the analytical measure; Sometimes Provided = 4-7 PE reports, on average, provided the
analytical measure; Rarely Provided = 1-3 PE reports, on average, provided the analytical measure;
Never Provided = None of the 10 PE Reports provided the analytical measure.
b
  While not addressed separately within this report, improvement is needed in obtaining and documenting bank
management’s own assessment of lending opportunities within its assessment area(s).
c
  Only 1 of the 10 PE reports noted the presence of public comments, so we could not conclusively determine if
examiners are using this information to formulate potential community development opportunities. Regardless, we were
able to conclude on the use of public comments within the lending test due to examiners’ comments concerning the
bank’s responsiveness to substantiated complaints, which is a lending test performance factor.

Recognition of Community Development Activities

As part of the community development test, examiners are required to identify and present within
the PE report a bank’s level of performance in providing community development loans,
investments, and services. In particular, this information forms the foundation of what will be
assessed and, potentially, how the institution will be rated. For the 10 PE reports reviewed, the
listing of activities presented for community development loans, investments, and services was not
always complete; and while not required by the ISB examination procedures, the information did
not always include an annual breakdown of the numbers and dollar amounts of these activities.
                                                         9
Specifically, we noted that the PE reports typically provided summary descriptions and listings of
the bank’s community development activities; however, some PE reports did not provide the total
number and/or dollar amount of each activity. We also noted that some of the PE reports did not
provide complete listings of community development activities. PE reports that provided summary
descriptions and/or complete listings of community development activities, including the total
number and dollar amount of community development loans and investments and the total number
of community development services, offered public users a comprehensive presentation of these
activities. However, public users of PE reports that did not include such comprehensive information
may have difficulty understanding the examiner’s conclusions or the support for those conclusions.
Table 2 summarizes the results of our review.

Table 2: Review of the Identification of Community Development Activities
                                                                                     No. of PE Reports
  Level of Data Collection and/or Analysis Presented in PE Reports                    That Provided
                                                                                       Information
PE Reports That Addressed Community Development Loans
      Provided Description of Community Development Loans                                                 10
      Provided Complete Listing of Community Development Loans                                             8
      Provided Number of Community Development Loans                                                       8
      Provided Dollar Amount of Community Development Loans                                               10
      Provided Annual Breakdown of Number and Dollar Amounts                                               2

PE Reports That Addressed Community Development Investments*
      Provided Description of Community Development Investments                                           10
      Provided Complete Listing of Community Development                                                   5
      Investments
      Provided Number of Community Development Investments                                                  4
      Provided Dollar Amount of Community Development                                                       9
      Investments
      Provided Annual Breakdown of Number and Dollar Amounts                                                1

PE Reports That Addressed Community Development Services
      Provided Description of Community Development Services                                              10
      Provided Complete Listing of Community Development Services                                          6
      Provided Number of Community Development Services                                                    1
      Provided Annual Breakdown of Number                                                                  0
Source: OIG analysis of DSC’s PE reports.
*
  One bank did not have any community development investments. Based on our analysis of the PE report for this bank,
we concluded that the examiner would have provided consideration for the investments similar to that provided for
community development loans and services. We assigned full credit to the various categories rated above except for the
community development investment category entitled, Provided Annual Breakdown of Number and Dollar Amounts. In
particular, the examiner did not provide for the corresponding category in presenting community development loans and
services.




                                                         10
Determination of Opportunities for Community Development

As part of the community development test, examination procedures require examiners to determine
the level and type of community development opportunities that are available or needed within a
bank’s assessment area(s) based on the data obtained from various sources of information. For
example, demographic and economic data may suggest the need for low-income housing. As a
result, the bank may have an opportunity to participate in funding housing that provides ownership
or rental opportunities for low- and moderate-income individuals and families. However, the level
of reporting and analysis of community development opportunities as presented within the 10 PE
reports we reviewed was not always complete. We noted that the PE reports provided detailed
descriptions of the bank’s assessment area(s) and typically provided an overall statement of
conclusion that included a consideration of the opportunity for community development. In
addition, all 10 PE reports provided some description of opportunity based on the statements made
by the community contacts. However, many PE reports did not present an analysis of the
opportunities for community development based on:

   •   the institution’s own assessment of community development needs and opportunities,
   •   the examiner’s analysis of economic and demographic data, and
   •   the community development activities of similarly-situated institutions.

For six PE reports, the determinations of opportunity for community development appear to have
been based primarily on the statements made by the community contacts. Complete information
provided in the PE reports allows the reader to better understand the conclusions reached by the
examiner. To ensure that the examiners include this information, the CRA examination guidance
should clearly instruct examiners how to formulate, evaluate, and/or present the determination of
community development opportunity and need. This information would be useful to a reader in
understanding how the examiners developed their conclusions in the PE report. Table 3, on the next
page, summarizes the results of our review.




                                               11
Table 3: Review of the Determinations of Opportunity for Community Development
                                                                                       No. of PE Reports
           Level of Data Collection and/or Analysis Presented                           That Provided
                                                                                         Information
Provided Description of the Assessment Area(s)                                                          10
Provided Description of Opportunity Based on the Bank’s Own                                              2
Assessment
Provided Description of Opportunity Based on the Examiner’s Economic                                         4
and Demographic Assessment
Provided Description of Opportunity Based on the Activities of Similarly-                                    2
Situated Institutionsa
Provided Description of Opportunity Based on the Statement of a                                             10
Community Contact
Provided Description of Opportunity Based on Public Commentsb                                    Inconclusive
Provided Overall Conclusion on the Assessment Area(s) Opportunities                                         8
(For example, the PE report noted that the opportunity level was high or
low.)
Provided Consideration of Opportunity Within a Statement of Conclusion                                       9
– the Rating Assignment
Source: OIG analysis of DSC’s PE reports.
a
  Nine PE reports identified similarly-situated institutions. One PE report stated that there was no similarly-situated
institution. However, seven of the nine PE reports did not use similarly-situated institutions to formulate potential
community development opportunities, despite this information’s availability.
b
  Nine PE reports identified, within the Lending Test, that no public comments were noted. One PE report identified that
public comments had been received concerning the bank’s payday lending practices. While concerns were noted
regarding certain payday lending practices, the details of the public comments were not discussed or analyzed for
potential community development opportunities. Since only 1 of the 10 PE reports we reviewed noted the presence of
public comments, we could not conclusively determine if examiners are using this information to formulate potential
community development opportunities.

Determination of Bank Capacity

As part of the community development test, the CRA regulations and examination procedures
require examiners to assess a bank’s performance and responsiveness in meeting the needs and
opportunities of its community based on the bank’s capacity (legal, financial, and managerial ability
to provide a certain type of product or service). However, the level of reporting and analysis on the
bank’s capacity, as presented within the 10 PE reports we reviewed, was not always complete.
While examination guidance does not clearly instruct examiners in how to perform this assessment,
examiners could provide and assess performance ratios that illustrate the bank’s level of response in
relationship to its financial ability.

We noted that the PE reports provided detailed descriptions of the institutions and that the
examiners typically concluded on the banks’ legal and financial ability to meet the credit needs of
its assessment areas. In addition, the PE reports typically provided an overall statement of
conclusion that included consideration of the bank’s capacity. However, for the reader to better
understand the conclusions drawn by the examiner, the level of community development activity
should be placed into a context that is reflective of the bank’s capacity and responsiveness. For PE
reports that provided a quantitative description, examiners used ratios such as Community
                                                   12
Development Loans to Net Loans and Community Development Investments to Total Investment.
These PE reports provide a better illustration of the bank’s capacity, and the ratios enable the reader
to better understand the bank’s performance and responsiveness. Table 4 summarizes the results of
our review.

Table 4: Review of the Determinations of Capacity for Community Development
                                                                                     No. of PE reports
          Level of Data Collection and/or Analysis Presented                          That Provided
                                                                                       Information
Provided a Description of the Institution                                                                10
Provided a Description of Lending Performance to the Bank’s Capacitya                                     2
Provided a Description of Investment Performance to the Bank’s                                            3
Capacityb
Provided an Overall Conclusion on the Institution’s Capacityc (For                                        9
example, the PE report noted that the bank had capacity to fund loans or
participate in community development activities.)
Provided Consideration of Capacity Within an Overall Statement of                                         8
Conclusion – the Rating Assignment
Source: OIG analysis of DSC’s PE reports.
a
  The description of capacity was illustrated through the ratio of Community Development Loans to Net Loans.
b
  The description of capacity was illustrated through such ratios as Community Development Investments to Total
Investments and Community Development Investments to Total Assets. In addition, one bank did not have any
community development investments. No credit was assigned because the examiner did not provide for that category in
presenting community development loans.
c
  The overall conclusions on capacity were typically phrased as the bank “has no legal or financial impediments that
would prevent it from meeting the assessment area(s) credit needs.”

Development and Use of Comparative Measures

As part of the community development test, examiners are not required to but could assess a bank’s
community development performance against comparative measures, such as the bank’s own
historical level and trend of performance and the performance of customized peer group averages.
Based on our review of 10 PE reports, we found that examiner analyses lacked comparative
measures of each bank’s own level and trend of community development performance and of
customized peer group averages, which are needed to perform a comprehensive analysis of the
bank’s performance level.

RD Memorandum 05-032, dated August 16, 2005, requires examiners to evaluate a bank’s
responsiveness to community development needs, while considering the institution’s performance
context. An institution’s performance context is formulated, in part, by a review of Call Reports,
Uniform Bank Performance Reports, prior performance evaluations, and performance evaluations
of similarly-situated institutions. However, we noted that the PE reports did not provide any
comparative measures as part of the examiner’s assessment of a bank’s community development
activities, despite evaluating the bank’s performance over an aggregated period of 2 to 6 years and
despite the recognition of similarly-situated institutions within the bank’s assessment area(s).

While certain comparative components, such as community development loans and investments, are
                                                        13
not reportable in the Call Reports and are not available in the Uniform Bank Performance Reports,
examiners could perform comparisons to the performance levels contained in the most recent PE
reports of similarly-situated institutions. Examination guidance requires examiners to identify and
evaluate these similarly-situated institutions when formulating a bank’s performance context, and
the information would be easily obtainable. In order to provide a more informative PE report, an
institution’s performance could be analyzed against comparative measures, such as the bank’s own
level and trend of performance and customized peer group averages. This approach would provide
report users the information they need to understand the bank’s context and level of performance in
relation to itself and other banks.

The noted variances within the PE reports appear to be the result of the general guidance provided
to examiners for performing the examination and preparing the PE reports. The guidance requires
that examiners consider, and document within the PE report, the following information:

   •   The total number and dollar amount of community development activities. However, the
       guidance does not clearly instruct examiners in how to present and analyze the level
       (number and dollar amount) of community development activities.
   •   The institution’s performance within the context of the opportunities available within the
       bank’s assessment area(s). However, the guidance does not clearly instruct examiners in
       how to formulate, evaluate, and present the determination of community development
       opportunity and need.
   •   The institution’s performance within the context of the bank’s capacity. However, the
       guidance does not clearly instruct examiners in how to illustrate and analyze the bank’s level
       of performance in relation to the bank’s financial ability.

In addition, the guidance does not clearly explain how examiners are to correlate the noted capacity,
opportunity, and level of community development activity to the assigned rating and present that
information in the PE report for the public’s use. As part of the community development test,
examiners are not required to but could consider and document within the PE report, the following
information:

   •   the level of performance on an annual basis, when available;
   •   the complete listings and details of community development activities (or could adhere to a
       process that consistently summarizes and details community development activities); and
   •   a comparative analysis.

Conclusion

By enhancing examination guidance to ensure that PE reports include complete supporting
information, public use and understanding of PE reports could be improved. While this information
alone will not determine the bank’s rating, the information is needed to help develop the analysis
that supports the examiner conclusions in PE reports. From this foundation, the analysis performed
could show consideration of the performance context, and the analysis could highlight other
mitigating or critical factors that are being considered. The need for complete support is heightened

                                                 14
by the fact that the PE reports are public documents that are used by individuals and community
groups in understanding bank performance in the community. By ensuring complete information to
support examination conclusions, the PE reports will become more informative and useful to the
public. If the community development test incorporated similar analytical tools used for the lending
test, such as totals, indices, and comparative measures, an independent reader could benefit from
understanding the analysis performed and how the examiner’s conclusions had been derived.

Recommendations

We recommend that the Director, DSC:

     1. Enhance examiner guidance to ensure examiners provide complete support in the PE reports
        for their conclusions for the community development test, including:
        • The total number and dollar amount of community development loans, investments, and
             services, including providing totals on an annual basis, when available, and complete or
             consistent summary listings.
        • The determination of community development opportunity and need, including the
             consideration of the institution’s own assessment, the examiner’s analysis of economic
             and demographic data, the activities of similarly-situated institutions, community
             contact statements, and public comments.
        • The placement of community development activities into the context of the institution’s
             capacity to meet those opportunities and needs, including the use and consideration of
             performance ratios where applicable.

     2. Develop examiner guidelines that incorporate the use of comparative measures within the
        performance analysis, such as the use of annual level and trend performance ratios and
        customized peer group averages for the community development test.

MEASURING THE IMPACT OF THE 2005 AMENDMENTS

The FDIC has not established performance measures or a strategy to determine if the 2005
amendments to the CRA regulations have provided the intended regulatory relief for smaller
community banks and preserved the importance of community development. Specifically, DSC has
not developed, tracked, or analyzed information related to regulatory relief and the preservation of
community development activities. While it may be premature to establish performance measures
at this time, because the amendments are relatively new, the FDIC can develop a strategy to ensure
that the necessary data collection resources and measures are in place to collect and analyze
applicable CRA data. Such a strategy will position the FDIC to proactively assess the impact of the
amendments made to the CRA regulations.

According to DSC, CRA performance has been measured to date by the community served and the
information received through the process outlined in the Administrative Procedure Act (APA).14

14
  In accordance with the APA, federal regulatory agencies create the rules and regulations necessary to implement
and enforce major legislative acts.
                                                       15
The APA process allows for the public to comment on the need for an amendment to the
regulations. Those comments also serve as a measure of the success of a regulation and allow the
federal banking agencies to assess the need for making necessary amendments.

In 1995, when the federal banking agencies and the Office of Thrift Supervision adopted major
amendments to the regulations implementing CRA, the agencies committed to reviewing the
amended regulations in 2002 for their effectiveness in emphasizing performance, promoting
consistency in evaluations, and eliminating unnecessary burden.15 In the case of the 2005
amendments to the CRA regulations, the federal banking agencies followed the APA process to
satisfy the 1995 requirement to review the regulations. According to DSC, the FDIC relies on
feedback received from interested parties such as consumer and community organizations, banks
and bank trade associations, academics, federal and state government representatives, and
individuals to determine the success of the CRA. The FDIC continuously measures the CRA
regulations’ effectiveness through the feedback they receive and will use the APA process again to
assess the CRA regulations in conjunction with the next EGRPRA review. Further, DSC indicated
that, although the FDIC considers these mechanisms sufficient for measuring CRA impact, a more
comprehensive and quantifiable approach for measuring CRA impact would help the FDIC to
ensure necessary data collection resources and measures are in place to analyze CRA data on a
systemic and community-wide basis.

The EGRPRA requires the federal financial regulatory agencies to identify outdated,
unnecessary, or unduly burdensome statutory or regulatory requirements. These agencies must
then eliminate unnecessary regulations to the extent appropriate. Significant issues raised by the
public and requiring legislative change must be referred to the Congress for appropriate action.
The EGRPRA ensures attention is paid to the regulatory burden imposed on insured depository
institutions and allows the financial industry and the public to have an opportunity to submit
comments and recommendations for improvement. However, the EGRPRA review is on a
10-year cycle.

The FDIC has performed numerous CRA examinations of institutions’ records in helping to meet
the credit needs of their communities and can enhance mechanisms to gauge the impact of the
amendments to the CRA regulations. Specifically, DSC has not developed, tracked, or analyzed
information related to regulatory relief and the preservation of community development
activities, which are the goals of the 2005 amendments to the CRA regulation. While the CRA
requires each federal banking agency to assess each federally insured institution's record of
helping to meet the credit needs of its entire community, the CRA and its implementing

15
  Generally, regulatory reviews to assess the need for regulatory amendments are made as a result of congressional
requests, court proceedings, or as required by the Economic Growth and Regulatory Paperwork Reduction Act of
1996 (EGRPRA), which requires the federal banking agencies to identify outdated, unnecessary, or unduly
burdensome statutory or regulatory requirements. Not less frequently than once every 10 years, as required by the
EGRPRA, the Federal Financial Institutions Examination Council (the Council) and each federal financial
regulatory agency represented on the Council conduct a review of all regulations prescribed by the Council or by
any such federal financial regulatory agency, to identify outdated or otherwise unnecessary regulatory requirements
imposed on insured depository institutions.

                                                        16
regulations do not prescribe how the agencies should measure whether the CRA is meeting its
intended purpose on a systemic and community-wide basis.

Neither the CRA nor the FDIC’s policies and procedures require that the FDIC track or measure
CRA performance. However, the Government Accountability Office (GAO) has issued
Standards for Internal Control in the Federal Government16 that include standards related to
control activities and monitoring. Establishment and review of performance measures, including
the comparison of performance to planned or expected results, are key components of control
activities. Similarly, assessment of performance over time is a key component of monitoring.
Control activities and monitoring also support a third internal control standard related to
information and communications. This standard addresses the need for management to ensure
there are adequate means of communicating information to external stakeholders that may have a
significant impact on the agency achieving its goals. With regard to amendments to the CRA
regulations, these external stakeholders include the public, Congress, community service
organizations, and financial institutions. In the case of the CRA, measurements of impact are
important because the regulations are performance-based rather than compliance-based.

Conclusion

Developing a strategy for measuring CRA impact would provide a meaningful assessment of the
amendments made to the CRA regulations. Because the amendments are relatively new, it may be
premature to establish outcome-oriented performance measures at this time. However, once the
strategy has been in place for a period of time, the FDIC could develop outcome-oriented
performance measures to assess CRA by comparing it to its intended purpose. Absent these
measures, the FDIC is not well positioned to identify potential areas for improvement for institution
implementation of the regulations or collect information to assess the results of the amendments to
the regulations. Further, the public and stakeholders, such as the Congress, may not be informed as
to the effectiveness of the CRA amendments and cannot take corrective action as necessary.
Implementing a mechanism to measure CRA impact will improve FDIC management’s oversight
and reporting practices and will help to validate the success of achieving the intended results and
goals of the regulatory amendments.

Recommendation

We recommend that the Director, DSC:

     3. Develop a strategy for measuring CRA activities as a result of the amendments made to the
        regulations to assist the FDIC in determining if the amendments have provided regulatory
        relief for smaller community banks and preserved the importance of community
        development in the CRA examinations of these banks.



16
  Internal control comprises the plans, methods, and procedures used by an organization to meet its missions, goals,
and objectives, and in doing so, supports performance-based management.
                                                        17
CORPORATION COMMENTS AND OIG EVALUATION

On March 29, 2007, the Director, DSC, provided a written response to a draft of this report. DSC’s
response is presented in its entirety as Appendix VI to this report. Regarding recommendation 1, by
December 31, 2007, DSC will issue guidance that requires examiners to present more complete
information in support of their conclusions within the PE report. Further, by September 30, 2007,
DSC will raise recommendations 2 and 3 for consideration by the other the federal banking
agencies. Specifically, in relation to incorporating the use of comparative measures within the CRA
performance analysis, among other factors, the agencies will assess whether appropriate information
is reasonably available and whether incorporating such measures would improve the intermediate
small bank CRA test. These measures include reducing the data collection burden on such banks
and providing them with the flexibility to determine how they can best meet their community
development responsibilities. Further, DSC stated that any CRA performance measures should be
developed on an interagency basis.

DSC’s actions are responsive to our recommendations. A summary of management’s response to
the recommendations is in Appendix VII. The recommendations are resolved but will remain open
until we have determined the agreed-to corrective actions have been completed and are effective.




                                                18
                                                                                    APPENDIX I




                      OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

The objectives of our audit were to determine whether the FDIC has (1) issued institution and
examination guidance that addresses the 2005 amendments to the CRA regulations and
(2) established outcome-oriented performance measures to determine if the revised regulations have
provided the intended regulatory relief for smaller community banks and preserved the importance
of community development. We conducted our audit in accordance with generally accepted
government auditing standards during the period August 2006 through January 2007.

Scope and Methodology

The audit focused on ISBs and related DSC guidance provided to institutions and examiners and the
measures in place to assess CRA impact. We performed the following:

• Obtained an understanding of the:
   • rationale for the amendments to the CRA regulations,
   • amendments to the CRA regulations, and
   • amendments to the CRA examination procedures and PE reports.
• Held an entrance conference and follow-up meetings with DSC and the FDIC’s Legal Division.
• Gained an understanding of the amendments to the CRA regulations and their implementation
   through a review of the Federal Register and discussions with DSC, the Legal Division, and
   OIG Counsel and created a timeline to identify the development of the amendments and their
   intent.
• Reviewed and summarized laws, regulations, and other criteria pertaining to CRA, including:
   • FILs,
   • RD Memoranda, and
   • FFIEC guidance.
• Identified and discussed CRA-related issues with the FDIC’s Office of the Ombudsmen.
• Identified CRA-related issues with the FDIC’s Consumer Response Center - Kansas City.
• Identified and reviewed speeches given by the FDIC Chairman and other public information
   related to CRA.
• Created a cross-walk to ensure amendments to the regulations had been addressed in the revised
   institution and examination guidance.
• Compared large institution CRA examination procedures to the new ISB CRA examination
   procedures.
• Reviewed general information on the FDIC’s Consolidated Reports of Condition and Income
   (Call Reports).

We selected a limited sample of PE reports prepared by FDIC examiners to gain an understanding
of the manner in which the amended CRA regulations have been implemented. Specifically, we



                                               19
                                                                                                     APPENDIX I




selected a non-statistical17 sample of 10 CRA PE reports from a total of 263 PE reports for
institutions that had been examined under either large or ISB examination procedures. The 10
reports were issued during the period September 2005 through August 2006 and consisted of 4 PE
reports by the Chicago Region, 1 by the Atlanta Region, 1 by the Dallas Region, and 4 by the
Kansas City Region. We selected our sample based on the following considerations:

•    Banks with at least $250 million but less than $1 billion in total assets.
•    Banks identified with a significant violation of the Equal Credit Opportunity Act and/or the Fair
     Housing Act, because the amended regulations clarified when discrimination and other illegal
     credit practices adversely affect CRA performance.
•    Banks examined based on the ISB examination procedures.

We discussed our sample with DSC management to explain our methodology and to ensure that our
sample would produce meaningful results. We also did the following:

•    Reviewed and analyzed the PE reports to determine how the amended regulations were being
     implemented to achieve their intended purpose.
•    Performed detailed analysis of the results of the community development test.

Internal Controls

We gained an understanding of relevant internal controls by reviewing: (1) DSC internal control
and review reports; (2) FDIC policies and procedures, such as FIL and RD Memoranda, related to
CRA; (3) the Compliance Examination Handbook; (4) examination procedures for assessing
institution performance related to CRA; and (5) available FFIEC guidance regarding the
implementation of CRA examination procedures. In addition, we held meetings with DSC
individuals involved in establishing CRA policy and performed substantive testing on controls for
integrating the revised regulations into FDIC policy. We also obtained an understanding of the
process used to revise regulations. Finally, we reviewed the Office of Enterprise Risk Management
2006 Accountability Unit Listing for DSC’s Compliance and Consumer Protection Unit.

Reliance on Computer-Based Data

Our audit objective did not require that we separately assess the reliability of computer-processed
data. We obtained certain data from DSC’s System of Uniform Reporting of Compliance and CRA
Performance Ratings application to identify CRA examinations conducted from September 2005
through August 2006. For purposes of the audit, we did not rely on computer-processed data to
support our significant findings, conclusions, and recommendations. Our assessment centered on
reviews of hardcopy reports of examination.



17
 The results of a non-statistical sample cannot be projected to the intended population by standard statistical
methods.

                                                         20
                                                                                      APPENDIX I




Government Performance and Results Act

The Government Performance and Results Act of 1993 directs federal agencies to develop a
strategic plan and annual performance plan to help improve federal program effectiveness and
service delivery. We reviewed the FDIC’s Strategic Plan for 2005-2010 and the FDIC 2006
Annual Performance Plan. We determined that the FDIC has a strategic goal and objective related
to the CRA performance of FDIC-supervised institutions but does not have outcome-oriented
performance measures for the amendments made to the CRA regulations as discussed in this report.
We reviewed the FDIC’s Corporate Performance Objectives (CPO) for 2005 and 2006 and the
proposed draft 2007 CPOs as of November 14, 2006. We determined that none of the 2006 CPOs
directly relate to measuring CRA impact. We also reviewed DSC’s 2006 Division Objectives and
determined that there were no actions directly related to measuring CRA impact.

Fraud and Illegal Acts

We did not develop specific audit procedures to detect fraud and illegal acts because they were not
considered material to the audit objective. However, throughout the audit, we were sensitive to the
potential for acts of fraud, waste, abuse, and mismanagement, and none came to our attention.

Laws and Regulations

In conducting the audit, we considered the following laws and regulations:

•   Housing and Community Development Act of 1977 (Public Law 95-128) – Title VIII
    (Community Reinvestment Act, 12 United States Code (U.S.C.) § 2901), 12 Code of
    Federal Regulations (C.F.R.) Part 345 of the FDIC Rules and Regulations. The CRA
    requires each appropriate supervisory agency to assess an institution’s record of helping to meet
    the credit needs of the local communities in which the institution is chartered, consistent with
    the safe and sound operation of the institution, and to take this record into account in the
    agency’s evaluation of an application for a deposit facility by the institution. Part 345
    establishes the framework and criteria the FDIC uses to assess a bank’s record of helping to
    meet the credit needs of its entire community, including low- and moderate-income
    neighborhoods, consistent with the safe and sound operation of the bank.

•   The Government Performance and Results Act of 1993 (GPRA). The FDIC is subject to
    certain aspects of the GPRA. Under the GPRA, the FDIC is required to prepare and submit
    to the Office of Management and Budget a 5-year strategic plan and an annual performance
    plan. The FDIC is also required to file an annual report on program performance to the
    Congress.

•   Administrative Procedure Act (APA) (5 U.S.C. § 551 et seq.). The APA requires about 55
    federal regulatory agencies to follow a specific process to create the rules and regulations
    necessary to implement and enforce major legislative acts.


                                                 21
                                                                                              APPENDIX I




•    Economic Growth and Regulatory Paperwork Reduction Act of 1996 (EGRPRA). Not
     less frequently than once every 10 years, the Federal Financial Institutions Examination
     Council and each federal banking agency represented on the Council shall conduct a review
     of all regulations prescribed by the Council or by any such appropriate federal banking
     agency, respectively, to identify outdated or otherwise unnecessary regulatory requirements
     imposed on insured depository institutions.

•    Equal Credit Opportunity Act (15 U.S.C. § 1691). This act promotes the availability of credit
     to all creditworthy applicants without regard to race, color, religion, national origin, sex, marital
     status, or age. The regulation prohibits practices that discriminate on the basis of any of these
     factors.

•    Fair Housing Act (42 U.S.C. § 3601). Subpart A of the Act prohibits all insured institutions,
     including insured state nonmember banks (ISNBs) supervised by the FDIC, from engaging in
     discriminatory advertising with regard to residential real-estate-related transactions. Subpart B
     notifies all ISNBs of their duty to collect and retain certain information about a home loan
     applicant’s personal characteristics in accordance with Regulation B of the Federal Reserve
     (12 C.F.R. Part 1202) in order to monitor an institution’s compliance with the ECOA.

Prior Audit Coverage

The OIG has conducted one prior audit related to CRA.

Audit Report No. 00-026, Audit of the Division of Compliance and Consumer Affairs’
Community Reinvestment Act Examination Process, issued July 7, 2000. The objective of this
audit was to determine (1) whether the Division of Compliance and Consumer Affairs18 consistently
applied CRA examination procedures within and among its regional offices and (2) whether these
procedures were applied in a manner that ensured the resulting ratings provided an accurate measure
of the banks’ performance. We recommended that (1) to ensure the PE reports more fully support
ratings given to institutions, the DCA Director should provide guidance to examiners that results in
consistent examination procedures and reports in the areas related to: description of bank assets and
selection of loan products for analysis; presentation of assessment area loan concentrations; and
presentation of small business analyses; (2) to enhance support for CRA PE report conclusions
through the use of examiner contacts with community organizations and leaders and the use of
comparative analytical data, the DCA Director should (a) require examiners to include a separate
section in the PE report to summarize the results of data obtained from community contacts;
(b) revise the policy related to community contacts to eliminate certain qualifiers that allow
examiners to avoid including information gathered from community contacts in PE reports; and
(c) require that PE reports provide data on the scope of the small business/small farm lending
reviews and the basis for the examiners’ conclusions; and (3) to improve the supervisory review
process, DCA should: (a) establish minimum guidelines for conducting quality assurance reviews


18
 The Division of Compliance and Consumer Affairs was subsequently merged into the division now referred to as
DSC.
                                                     22
                                                                                   APPENDIX I




of PE reports; (b) require Field Office Supervisors and the Review Examiner to document their
quality assurance reviews; and (c) establish a requirement for minimum working paper standards.




                                               23
                                                                                   APPENDIX II




                CRA PERFORMANCE EVALUATION RATING SYSTEM

The CRA requires the FDIC, in connection with the examination of a state nonmember insured
financial institution, to assess the institution’s CRA performance. A financial institution’s
performance is evaluated in the context of information about the institution (financial condition
and business strategies), its community (demographic and economic data), and its competitors.
Upon completion of a CRA examination, the FDIC rates the overall CRA performance of the
financial institution using a four-tiered rating system.

In assigning a rating, the FDIC evaluates a bank’s performance under the applicable performance
criteria in the regulation, which provides for adjustments on the basis of evidence of
discriminatory or other illegal credit practices. A bank’s performance need not fit each aspect of
a particular rating profile in order to receive that rating, and exceptionally strong performance
with respect to some aspects may compensate for weak performance in others. The bank’s
overall performance, however, must be consistent with safe and sound banking practices and
generally with the appropriate profile as follows.

Ratings Definitions

The following ratings are defined in the Compliance Examination Handbook.

“Outstanding.” An institution in this group has an outstanding record of helping to meet the
credit needs of its assessment area, including low- and moderate-income neighborhoods, in a
manner consistent with its resources and capabilities.

“Satisfactory.” An institution in this group has a satisfactory record of helping to meet the
credit needs of its assessment area, including low- and moderate-income neighborhoods, in a
manner consistent with its resources and capabilities.

“Needs to Improve.” An institution in this group needs to improve its overall record of helping
to meet the credit needs of its assessment area, including low- and moderate-income
neighborhoods, in a manner consistent with its resources and capabilities.

“Substantial Noncompliance.” An institution in this group has a substantially deficient record
of helping to meet the credit needs of its assessment area, including low- and moderate-income
neighborhoods, in a manner consistent with its resources and capabilities.




                                                24
                                                                                                                                           APPENDIX III



           COMPARISON OF LARGE BANK CRA EXAMINATION PROCEDURES TO ISB EXAMINATION PROCEDURES

                                     Large Bank                                                                Intermediate Small Bank
Lending Test                                                                        Lending Test
- The lending test is based on bank-collected loan data.                            - The lending test can be based on bank collected loan data, or if data are not
                                                                                    collected, then examiner sampling.


Conclusions are based on:                                                           Conclusions are based on:
   • lending activity;                                                                 • loan-to-deposit ratio analysis;
   • geographic distribution;                                                          • assessment area(s) concentration;
   • borrower characteristics;                                                         • geographic distribution;
   • the number and amount of community development loans; and                         • borrower characteristics; and
   • use of innovative or flexible lending practices.                                  • response to substantiated complaints.



Investment Test                                                                     Community Development Test
- The investment test is based on identified qualified investments.                 - The community development test is based on the bank’s responsiveness to
                                                                                    community development needs through community development loans,
                                                                                    qualified investments, and services – while also considering community need
                                                                                    and bank capacity.


Conclusions are based on:                                                           Conclusions are based on:
   • the number and dollar amount of qualified investments;                            • the number and amount of community development loans;
   • the innovativeness and complexity of qualified investments;                       • the number and amount of qualified investments;
   • the degree to which these types of investments are not routinely provided by      • the extent to which the institution provides community development
       other private investors; and                                                        services, including the provision and availability of services to low- and
   • the responsiveness of qualified investments to available opportunities.               moderate-income neighborhoods, including through branches and other
                                                                                           facilities in low- and moderate-income areas; and
                                                                                       • the responsiveness to the opportunities for community development
                                                                                           lending, qualified investments, and community development services.



                                                                              25
                                                                                                                                                      APPENDIX III



                                       Large Bank                                                                         Intermediate Small Bank
Service Test
- The service test is based on retail banking services and community development
services.


Conclusions are based on:
   • the distribution of branches among low-, moderate-, middle-, and upper-
       income geographies;
   • the institution’s record of opening and closing branches, particularly
       branches located in low- or moderate-income geographies or primarily
       serving low- or moderate-income individuals;
   • the availability and effectiveness of alternative systems for delivering retail
       banking services;
   • the extent to which the institution provides community development
       services; The innovativeness and responsiveness of community
       development services; and the range and accessibility of services provided
       in low-, moderate-, middle-, and upper-income geographies.


Source: OIG analysis of FFIEC examination procedures and regulatory guidance.
Note: The Large Bank’s highlighted sections signify areas that have been de-emphasized and/or have no corresponding area of consideration within the ISB examination
procedures.




                                                                                       26
                                                                                             APPENDIX IV
                       EXAMINATION AND INSTITUTION GUIDANCE

 Financial Institution Letters                                Description/Summary
• FIL-79-2005, Community            The FDIC, FRB, and the OCC issued joint CRA rules, which became
   Reinvestment Act: Joint          effective September 1, 2005. The interagency rules provide regulatory
   Final Rules, dated               relief for smaller banks and preserve the importance of community
   August 9, 2005                   development in the CRA evaluations of these banks.

•   FIL-113-2005, Community         The FDIC, FRB, and OCC published proposed guidance on community
    Reinvestment Act: Proposed      reinvestment in the form of questions and answers (Q&A) (see FIL-23-
    Interagency Questions and       2006 for adopted Q&As).
    Answers, dated
    November 16, 2005

•   FIL-23-2006, Community          The FDIC, FRB, and the OCC published guidance on community
    Reinvestment Act: New           reinvestment in the form of Q&As. The agencies have adopted all of the
    Interagency Questions and       proposed Q&As or, as noted, with revision. The interagency Q&As were
    Answers, dated March 10,        developed to address the amendments to the CRA regulations that took
    2006                            effect on September 1, 2005.

•   FIL-33-2006, Community          The FDIC, FRB, and the OCC issued interagency CRA examination
    Reinvestment Act:               procedures for ISBs and revised procedures for small institutions, large
    Interagency Examination         institutions, wholesale and limited-purpose institutions, and institutions
    Procedures, dated April 10,     under a strategic plan. These examination procedures reflect the
    2006                            significant amendments to the CRA regulations that took effect on
                                    September 1, 2005.

DSC Regional Directors
Memoranda
• 06-009, Revised Interagency       Transmitted the revised interagency CRA examination procedures for
   CRA Examination                  small institutions, large institutions, wholesale and limited-purpose
   Procedures, dated April 3,       institutions, and institutions under a strategic plan.
   2006
• 05-046, CRA Consideration         Distributed examiner guidance for the CRA consideration of activities
   of Activities that Revitalize    that revitalize or stabilize designated disaster areas affected by
   or Stabilize Areas Affected      Hurricanes Katrina and Rita and that benefit individuals displaced around
   by Hurricanes Katrina and        the country.
   Rita, dated December 14,
   2005
• 05-032, Interagency CRA           Distributed new interagency CRA examination procedures for ISBs.
   Examination Procedures for
   Intermediate Small
   Institutions, dated August 16,
   2005

DSC Compliance Examination          The DSC Compliance Examination Manual was replaced by the
Manual                              Compliance Examination Handbook in June 2006. The Compliance
                                    Examination Handbook incorporated the new interagency CRA
                                    examination procedures for ISBs.




                                                      27
     APPENDIX VI




31
     APPENDIX VI




32
                                                                                                       APPENDIX VII



                          MANAGEMENT RESPONSE TO RECOMMENDATIONS

This table presents the management response on the recommendations in our report and the status of
the recommendations as of the date of report issuance.


     Rec.         Corrective Action: Taken or                Expected             Monetary        Resolved:a     Open or
     No.                      Planned                    Completion Date          Benefits        Yes or No      Closedb
      1       DSC will issue guidance that requires      December 31, 2007          $0               Yes          Open
              examiners to present more complete
              information in support of their
              conclusions within the PE report.
       2      DSC will raise this recommendation            September 30,             $0              Yes          Open
              for consideration by the other federal            2007
              banking agencies.
       3      DSC will raise this recommendation            September 30,             $0              Yes          Open
              for consideration by the other federal            2007
              banking agencies.

a
    Resolved – (1) Management concurs with the recommendation, and the planned corrective action is consistent with the
                    recommendation.
              (2) Management does not concur with the recommendation, but planned alternative action is acceptable to
                   the OIG.
              (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount. Monetary
                   benefits are considered resolved as long as management provides an amount.
b
  Once the OIG determines that the agreed-upon corrective actions have been completed and are effective, the
recommendation can be closed.




                                                                33
